HHS/OIG, Audit - "Review of the Prescription Drug Additional Benefit Offered By Kaiser Foundation Health Plan, Southern California in the Calendar Year 2000 Adjusted Community Rate Proposal," (A-09-02-00077)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Prescription Drug Additional Benefit Offered By Kaiser
Foundation Health Plan, Southern California in the Calendar Year 2000 Adjusted
Community Rate Proposal," (A-09-02-00077)
December 23, 2002
Complete Text of Report is available in PDF format
(3.48 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to assess whether Kaiser properly valued and
reported the prescription drug additional benefit in the Calendar Year 2000
Adjusted Community Rate Proposal.  Our review found that Kaiser paid less
than the average manufacturer price for the prescription drugs we reviewed and,
therefore, properly valued those drugs.  Additionally, we found the prescription
drug additional benefit reported in the Calendar Year 2000 Adjusted Community
Rate Proposal was properly based on actual costs.